BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief ofAmicus Curiae
Immigration Reform Law Institute In Support of
Appellants in 20-366, Donald J. Trump, President of
the United States, et al. v. New York, et al., were sent
via Next Day Service to the U.S. Supreme Court, and
3 copies were sent via Next Day Service and e-mail to
the following parties listed below, this 30th day of
October, 2020:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Appellants
Dale E. Ho
American Civil Liberties Union
125 Broad Street
Director, Voting Rights Project
New York, NY 10004
(212) 549-2693
dale.ho@aclu.org

Counsel for Appellees
New York Immigration Coalition, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I (800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
· Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
. Washington, DC 20005

Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
(212) 416-8016
Barbara.underwood@ag.ny.gov
Counsel for Government Appellees
New York et al.
Christopher J Hajec
Counsel of Record
Gina M. D'Andrea
Immigration Reform Law Institute
25 Massachusetts Ave., NW
Suite 335
Washington, DC 20001
(202) 232-5590
chajec@irli.org
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 30, 2020.

Donna J. Wolf
""
rt)
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

{JcZ{; /».t

d, Zv(].

Notary Public

2:;{J ,

dOdCJ

~

[seal]

JOHN D. GALLAGHER
Notary Public, Stale of Ohio
My Commission E pirns
February 14, 2023

